                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278

July 27, 2012



Report Number: A-02-11-02012

Ms. Veronica Cruz
Director, Division of Community Services
New York State Department of State
99 Washington Avenue Suite 1020
Albany, NY 12231-0001

Dear Ms. Cruz:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled New York State Claimed Allowable Community Services
Block Grant Recovery Act Costs for Newburgh Community Action Committee, Inc. We will
forward a copy of this report to the Administration for Children and Families (ACF) officials
noted on the following page.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the ACF officials.
Please refer to report number A-02-11-02012 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Veronica Cruz

ACF Officials:

Ms. Janice L. Samuel
Director, Division of Financial Integrity
Janice.Samuel@acf.hhs.gov

Ms. Jeannie Chaffin
Director, Office of Community Services
Jeannie.Chaffin@acf.hhs.gov

Mr. Seth Hassett
Director, Office of Community Services
Seth.Hassett@acf.hhs.gov

Ms. Frances Harley
Director, Office of Community Services
Frances.Harley@acf.hhs.gov
 Department of Health and Human Services
             OFFICE OF

        INSPECTOR GENERAL





    NEW YORK STATE CLAIMED

 ALLOWABLE COMMUNITY SERVICES

BLOCK GRANT RECOVERY ACT COSTS

   FOR NEWBURGH COMMUNITY

     ACTION COMMITTEE, INC.





                        Daniel R. Levinson

                         Inspector General


                            July 2012

                          A-02-11-02012

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                              INTRODUCTION


BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Omnibus
Reconciliation Act of 1981, P.L. 97-35, (as amended in 1998 by the Community Opportunities,
Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-285) (the
CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S. Department
of Health and Human Services, the Administration for Children and Families (ACF), Office of
Community Services administers the CSBG program.

The CSBG funds a State-administered network of more than 1,000 local community action
agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, better use of available income,
housing, nutrition and health to combat the causes of poverty.

The American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the CSBG program for fiscal years
(FY) 2009 and 2010. As with annually appropriated CSBG funds, Recovery Act funds were to
be used to reduce poverty, revitalize low-income communities, and help low-income Americans.
In addition, CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010. Recovery Act grant funds were intended to cover additional costs for the
same types of services.

New York State Department of State

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State’s CSBG activities. In New York State, the
Department of State (the State) administers the CSBG program through the Division of
Community Services. ACF awarded the State $86,780,940 in Recovery Act funds for its CSBG
program, which includes 52 CAAs.

Newburgh Community Action Committee, Inc.

Newburgh Community Action Committee, Inc. (Newburgh) is a nonprofit CAA that offers a
variety of services, such as training, workshops, and seminars designed to improve the skills and
lives of targeted low-income populations. The State awarded the Agency $228,872 in CSBG
grant funds for FY 2009, 1 and $361,765 in CSBG Recovery Act funds for the period April 1,
2009, through September 30, 2010.
1
    New York State operates its CSBG program on an October to September fiscal year basis.


                                                         1

Federal Requirements for Grantees

Section 678D(a)(1)(B) of the CSBG Act requires that States that receive CSBG funds ensure that
cost and accounting standards of the OMB apply to a recipient of the funds under this subtitle.
As a result, ACF determined that non-profit Community Action Agencies are subject to 45 CFR
pt. 74. Federal regulations (45 CFR § 74.27(a)) state that the allowability of costs for non-profit
organizations will be determined in accordance with 2 CFR pt. 230 (formerly OMB Circular A­
122), Cost Principles for Non-Profit Organizations.

Pursuant to 2 CFR pt. 230, App. A, A.2.a. and A.2.g., to be allowable under a Federal award,
costs must be reasonable, allocable, and adequately documented.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the CSBG Recovery Act costs that the State claimed for
Newburgh were allowable in accordance with applicable Federal requirements.

Scope

We reviewed $339,758 of the State’s claim of $356,765 2 for Newburgh’s program expenditures
funded by the Recovery Act for the period April 1, 2009, through September 30, 2010. This
review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided by the Recovery Act. We limited our review of internal controls to
those that were significant to the objective of our audit.

We performed our fieldwork at the State’s offices in Albany, New York, and Newburgh’s offices
in Newburgh, New York.

Methodology

To accomplish our objective, we:

    •	 reviewed relevant Federal laws, regulations, and guidance;

    •	 met with State officials to gain an understanding of the State’s processes for distributing
       and monitoring grant awards;

    •	 reviewed the State’s Recovery Act notices of grant award;

    •	 reviewed the terms and conditions of the CSBG Recovery Act agreement between the
       State and Newburgh;
2
 Although the State awarded Newburgh CSBG Recovery Act grant funds totaling $361,765, the State only claimed
$356,765 of that amount.


                                                     2

   •	 met with Newburgh officials to gain an understanding of their CSBG program, how
      Recovery Act funds were spent, and Newburgh’s internal controls and financial
      management system;

   •	 reviewed the State’s 2010 monitoring reports on Newburgh;

   •	 reviewed Newburgh’s policies and procedures related to the CSBG program;

   •	 reconciled Newburgh’s CSBG Recovery Act quarterly expenditure reports to its

      accounting records;


   •	 judgmentally selected and reviewed 384 transactions, totaling $339,758 ($134,229 in
      salary and related costs, and $205,529 in non-salary costs);

   •	 reviewed, for the selected transactions, Newburgh’s documentation supporting the

      expenditures charged to the CSBG Recovery Act agreement;


   •	 determined whether the expenditures charged to the CSBG Recovery Act agreement were
      allowable and in accordance with Federal requirements; and

   •	 discussed our findings with Newburgh officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                   RESULTS OF REVIEW

CSBG Recovery Act costs that the State claimed for Newburgh were allowable in accordance
with applicable Federal requirements. As a result, this report contains no recommendations.




                                               3

